Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




         MEDICARE
 REIMBURSEMENT FOR LUPRON




                    Inspector General

                     January 2004
                    OEI-03-03-00250
               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommen dations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties. The OI also oversees
state Medicaid fraud control units, which investigate and prosecute fraud and patient
abuse in the Medicaid program.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the
health care community, and issues fraud alerts and other industry guidance.
    A B S T R A C T 



                              Medicare and its beneficiaries paid $677 million for Lupron in
                              calendar year (CY) 2002, accounting for 8 percent of all
                              Medicare drug reimbursements that year. In 2003, the
                              Medicare reimbursement amount for Lupron was set at 95
                              percent of the drug’s average wholesale price, as required by
                              Federal law. Medicare carriers often use local medical review
                              policies (LMRPs) in order to further specify the circumstances
                              under which a service is covered and paid by the program. One
                              type of LMRP, a least costly alternative policy, states that the
                              carrier will not cover the additional cost of a more expensive
                              product if a clinically comparable product costs less. According
                              to the LMRPs of many carriers, a single dose of the drug Zoladex
                              has been found by many experts to be clinically comparable to a
                              single dose of Lupron. In the second quarter of 2003, the
                              Medicare reimbursement amount for a single dose of Zoladex
                              was $446.49, 27 percent less than the reimbursement amount
                              for a single dose of Lupron ($611.56). Therefore, in jurisdictions
                              where a carrier applies a least costly alternative policy,
                              physicians that administer Lupron are generally reimbursed the
                              Zoladex amount. We obtained and reviewed LMRPs from all
                              Medicare carriers. We found that carriers in 10 of 57
                              jurisdictions did not apply a least costly alternative policy to
                              Lupron. In 2002, the carriers in these 10 jurisdictions
                              reimbursed a total of $147 million for the drug. If these carriers
                              implemented a least costly alternative policy, their
                              reimbursement amount for Lupron would be cut by 27 percent,
                              saving Medicare and its beneficiaries $40 million per year. We
                              recommended that CMS encourage all Medicare carriers to
                              apply a least costly alternative policy to Lupron.




O E I - 03 - 03 - 0 0 2 5 0             M E D I C A R E R E I M B U R S E M E N T F OR L U P R O N   i
T A B L E                             O F             C O N T E N T S 




                     A B S T R A C T . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i





                     I N T R O D U C T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1





                     FINDING

                                 Medicare and its beneficiaries would save $40 million per year 

                                 if all carriers applied a least costly alternative policy ....................... 5




                     R E C O M M E N D A T I O N . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6





                     A P P E N D I X . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7





                     A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9





O E I - 03 - 03 - 0 0 2 5 0                            M E D I C A R E R E I M B U R S E M E N T F OR L U P R O N                                 ii

I N T R O D U C T I O N 




                              OBJECTIVE
                              To determine the amount Medicare would save if all carriers
                              established a least costly alternative policy for Lupron
                              (leuprolide acetate 7.5 milligrams (mg) depot suspension).


                              BACKGROUND
                              Medicare Reimbursement of Lupron
                              Currently, Medicare Part B does not pay for over-the-counter or
                              most outpatient prescription drugs. However, under specific
                              circumstances, Medicare Part B covers drugs used with durable
                              medical equipment or infusion devices. Medicare also covers
                              certain drugs used in association with organ transplantation,
                              dialysis, chemotherapy, and pain management. One such drug,
                              leuprolide acetate (brand name Lupron), is used in the
                              treatment of advanced prostate cancer. Lupron is manufactured
                              by TAP Pharmaceutical Products Inc.
                              The Centers for Medicare & Medicaid Services (CMS) contracts
                              with companies, known as carriers, to process and reimburse
                              most Part B claims, including claims for prescription drugs.
                              Twenty carriers currently serve 57 specific jurisdictions.
                              Physicians submit claims for Lupron to the carrier in their area,
                              and are subsequently reimbursed by Medicare.
                              Medicare=s reimbursement methodology for Lupron and other
                              prescription drugs is defined by section 1842(o) of the Social
                              Security Act (the Act), as amended by section 4556 of the
                              Balanced Budget Act of 1997. The Act states that
                              reimbursement for a covered drug is to be set at 95 percent of
                              the drug’s average wholesale price (AWP). CMS directs carriers
                              to obtain AWP data from the Red Book or similar pricing
                              publications used by the pharmaceutical industry.
                              Recently, the Medicare Prescription Drug, Improvement, and
                              Modernization Act of 2003 lowered payments for many Part B
                              drugs by revising section 1842(o) of the Act. According to the
                              Medicare Prescription Drug, Improvement, and Modernization
                              Act of 2003, the payment for a drug contained in the table
                              “Medicare Part B Drugs in Most Recent GAO and OIG Studies”
                              published in the Federal Register will be the percentage of the
                              AWP indicated in the table. If the percentage in the table is less

O E I - 03 - 03 - 0 0 2 5 0                   ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   1
                              than 80 percent, then the percentage applied to reimbursement
                              will be 80 percent. Based on the data presented in this table, in
                              2004, Medicare reimbursement for Lupron will be 81 percent of
                              the AWP.
                              Medicare beneficiaries are responsible for paying a 20 percent
                              copayment for Lupron and other covered drugs. In 2002,
                              Medicare and its beneficiaries paid $677 million for Lupron (7.5
                              mg depot suspension), accounting for 8 percent of all Medicare
                              drug reimbursement that year.
                              Local Medical Review Polices
                              Medicare carriers issue local medical review policies (LMRPs) in order to
                              further specify the circumstances under which a service is covered by the
                              program. According to CMS’s Medicare Program Integrity Manual
                              (Chapter 13, Section 1.3):

                                      Contractors develop LMRPs by considering medical
                                      literature, the advice of local medical societies and medical
                                      consultants, and public comments. If a contractor develops
                                      an LMRP, its LMRP applies only within the area it services.
                                      While another contractor may come to a similar decision,
                                      CMS does not require it to do so.
                              The contractors are required to ensure that all LMRPs are consistent
                              with all statutes, rulings, regulations, and national coverage,
                              payment, and coding policies.
                              Carriers’ Use of Least Costly Alternative Policy
                              According to carrier LMRPs, a least costly alternative policy means that
                              the carrier will not cover the additional cost of a more expensive product
                              if a clinically comparable product costs less. Carriers’ use of a least
                              costly alternative is supported by CMS in its Program Integrity Manual
                              (Chapter 13, Section 5.4), which states, “Least costly alternative is a
                              national policy provision that must be applied by contractors when
                              determining payment for all durable medical equipment (DME).
                              Contractors have the discretion to apply this principal to payment for
                              non-DME services as well.”

                              Over the last several years, many carriers have implemented a least
                              costly alternative policy for Lupron. According to carrier LMRPs, a
                              single dose of the drug goserelin acetate (i.e., 3.6 mg implant, brand
                              name Zoladex) has been found by many experts to be clinically
                              comparable to a single dose of Lupron (7.5 mg depot suspension). As of
                              the second quarter of 2003, the Medicare reimbursement amount for a

O E I - 03 - 03 - 0 0 2 5 0                    ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   2
I   N   T    R       O      D         U   C   T   I   O   N


                                              single dose of Zoladex is $446.49, 27 percent less than the
                                              reimbursement amount for a single dose of Lupron ($611.56). Therefore,
                                              in jurisdictions where a carrier applies the least costly alternative policy,
                                              physicians that administer Lupron are generally reimbursed the Zoladex
                                              amount. In some instances, however, the full reimbursement amount
                                              may still be paid if the physician can document why the more costly
                                              treatment option (i.e., Lupron) is medically necessary. Furthermore,
                                              some carriers allow reimbursement to be made at the higher amount if
                                              the beneficiary was already being treated with Lupron at the time the
                                              least costly alternative policy was enacted.

                                              Related Work by the Office of Inspector General (OIG)
                                              OIG has consistently found that Medicare’s usual
                                              reimbursement amount for Lupron (based on average wholesale
                                              price) is excessive. For example, in our report Medicare
                                              Payments for Prescription Drugs--Response to Request from
                                              Representative W. J. Tauzin (June 2001), we calculated that the
                                              Medicare reimbursement amount for Lupron in 2000 was more
                                              than double the Department of Veterans Affairs (VA) purchase
                                              price. According to our findings, excessive reimbursement for
                                              Lupron alone was costing the Medicare program up to $359
                                              million per year.
                                              In another of our reports, Medicare Reimbursement of
                                              Prescription Drugs (January 2001), we found that Medicare
                                              would have saved almost $100 million in 1999 by reimbursing
                                              for Lupron at the actual wholesale price available to the
                                              physician/supplier community.


                                              METHODOLOGY
                                              We reviewed laws and regulations concerning Medicare drug
                                              reimbursement. We obtained and reviewed LMRPs from all
                                              Medicare carriers in order to determine which carriers currently
                                              apply a least costly alternative policy to Lupron. We accessed
                                              CMS’s Part B Extract Summary System to determine each
                                              carrier’s 2002 total reimbursement for Lupron. To calculate the
                                              potential savings that would be achieved if carriers not using
                                              least costly alternative implemented such a policy, we (1) added
                                              the total reimbursement for Lupron by all carriers not using a
                                              least costly alternative policy, and (2) multiplied this figure by
                                              27 percent.


        O E I - 03 - 03 - 0 0 2 5 0                            ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   3
I   N   T    R       O      D         U   C   T   I   O   N


                                              Note on Savings Estimates: The savings estimates presented in
                                              this report are based on 2003 reimbursement amounts. In 2003,
                                              Medicare reimbursed 95 percent of the AWP for both Lupron
                                              and Zoladex. Based on provisions of the recently passed
                                              Medicare Prescription Drug, Improvement, and Modernization
                                              Act of 2003, Medicare will reimburse Lupron at 81 percent of the
                                              AWP in 2004. Zoladex will be reimbursed at 80 percent of the
                                              AWP.


                                              This study was conducted in accordance with the Quality
                                              Standards for Inspections issued by the President=s Council on
                                              Integrity and Efficiency.




        O E I - 03 - 03 - 0 0 2 5 0                           ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   4
         F I N D I N G 





                            Currently, Medicare carriers in 47 of 57 jurisdictions apply a
                            least costly alternative policy to Lupron. Carriers in these 47
                            jurisdictions reimburse $446.49 for 7.5 mg of Lupron, 27 percent
                                                             less than carriers in the 10
      Medicare and its beneficiaries would save
                                                             jurisdictions without a least
$40 million per year if 10 carriers not using least
                                                             costly alternative policy (who
   costly alternative implemented such a policy.
                                                             reimburse $611.56 for the same
                            amount). In 2002, the carriers that did not have a least costly
                            alternative policy reimbursed a total of $147 million for Lupron,
                            accounting for 22 percent of all Medicare payments for the drug.
                            If these carriers implemented a least costly alternative policy,
                            their reimbursement amount for the drug would be cut by 27
                            percent. This reduction would save Medicare and its
                            beneficiaries $40 million per year.




         O E I - 03 - 03 - 0 0 2 5 0         ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   5
R E C O M M E N D A T I O N 





                              Medicare carriers representing 10 of 57 jurisdictions have not
                              implemented a least costly alternative policy for Lupron. As a
                              result, these carriers are paying substantially more for the drug
                              than carriers serving 47 other localities. If carriers in these 10
                              jurisdictions adopted a least costly alternative policy, Medicare
                              and its beneficiaries could save $40 million per year. Although
                              CMS does not require carriers to have identical medical policies,
                              this seems to be a situation where all carriers would benefit
                              from utilizing a least costly alternative policy for Lupron.
                              Therefore, we recommend that CMS encourage all Medicare
                              carriers to apply a least costly alternative policy to Lupron.
                              Agency Comments
                              CMS partially concurred with our recommendation, agreeing to
                              facilitate communication between carriers that have adopted a
                              least costly alternative policy and those that have not. CMS
                              stated that they will continue to monitor the use of these policies
                              for Lupron and other drugs while also pursuing other initiatives
                              to reduce excessive growth in drug spending. However, CMS
                              stated that although they provide oversight of the development
                              of contractor LMRPs, they do not generally influence the
                              application of these guidelines in specific circumstances. The
                              full text of CMS’s comments is presented in the appendix.




O E I - 03 - 03 - 0 0 2 5 0                   ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   6
        A P P E N D I X 




Centers for Medicare & Medicaid Services Comments




        O E I - 03 - 03 - 0 0 2 5 0   ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   7

A   P   P      E      N       D       I   X




        O E I - 03 - 03 - 0 0 2 5 0           ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   8

A C K N O W L E D G M E N T S 





                              This report was prepared under the direction of Robert A. Vito,
                              Regional Inspector General for Evaluation and Inspections in
                              the Philadelphia Regional Office, and Linda M. Ragone, Deputy
                              Regional Inspector General. Other principal Office of
                              Evaluation and Inspections staff who contributed include:

                              David Tawes, Team Leader

                              Cynthia Hansford, Program Assistant

                              Linda Frisch, Program Specialist





O E I - 03 - 03 - 0 0 2 5 0                  ME D I C A R E R E I M B U R S E M E N T F OR L U P R O N   9
